OIG Investigative Reports, Philadelphia, PA., August 13, 2013 - Head of Charter School Pleads Guilty To Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of PENNSYLVANIA
NEWS
Head of Charter School Pleads Guilty To Fraud
FOR IMMEDIATE RELEASE
August 13, 2013
PHILADELPHIA – Masai  Skief, 32, of Philadelphia, Pennsylvania, pleaded
guilty today to an information  charging him with two counts of wire fraud,
arising from the abuse of his  leadership positions at a Philadelphia charter
school, announced United States  Attorney Zane David Memeger.  Skief was  the
chief executive officer of Harambee Institute of Science and Technology
Charter School (“Harambee Charter School”) and the president  and chief
administrative officer of a related non-profit organization, Harambee
Institute, Inc. (“Harambee Institute”).
Harambee Charter  School, a non-profit corporation, was
established to educate children from  kindergarten to eighth grade, and it
promoted itself as Pennsylvania’s first  African-centered charter school.
Harambee  Institute was a separate non-profit corporation that had been
established to  provide students with educational services and vocational
training.  Harambee Institute owned the school building  that was used by
Harambee Charter School and collected rent from the school.  For its
students, Harambee Charter School  created a scholarship fund intended to
benefit those who intended to attend a “historically  black institution of
higher education in the United States.”
During a guilty  plea hearing before the Honorable Paul S.
Diamond, Skief admitted that he  engaged in a scheme to improperly obtain the
funds of both the scholarship fund  and Harambee Institute.  First, Skief
improperly withdrew $9,000 from the scholarship fund in order to purchase a
house for himself in Philadelphia.  Then,  through his control of the bank
accounts of Harambee Institute, Skief converted  for his own personal use
approximately $79,000 from Harambee Institute.  He did this primarily through
a series of  improper cash withdrawals from the bank accounts of Harambee
Institute.
Skief also made  substantial efforts to conceal his illegal
activities, both during and after  the fraud.  In particular, he attempted
to disguise a significant portion of his improper cash withdrawals from the
accounts of Harambee Institute as labor costs for Harambee Institute, when
there were no such labor costs associated with the improper withdrawals.
Skief directed an accountant to create IRS forms  to reflect this false
information.  Skief  also directed others to lie for him to federal agents
and to a federal grand  jury about the use of the funds that the defendant
had unlawfully converted.
A sentencing  hearing is scheduled for November 14, 2013.   Skief
faces a maximum possible sentence of 40 years in prison and an  expected
advisory sentencing guideline range of at least 21 to 27 months
imprisonment, plus full restitution to the scholarship fund and to the
Harambee  Institute.
“Masai Skief  stole scholarship money, mortgaging children’s
futures to help buy himself a  house,” said FBI Special Agent-in-Charge
Edward Hanko. “His further theft from  the education non-profit taught
Philadelphia’s kids a harsh lesson about  unmitigated greed.”
“Today’s action  shows that Mr. Skief not only abused his position
of trust for personal gain,  but did so at the expense of students.   That is
unacceptable,” said Special Agent-in-Charge Steven Anderson, of  the U.S.
Department of Education Office of Inspector General Mid-Atlantic  Office.
“OIG will continue to  aggressively pursue those who misappropriate education
funds for their own  purposes.  America’s students and  taxpayers deserve
nothing less.”
The case was  investigated by the Federal Bureau of Investigation
and the United States  Department of Education Office of Inspector General.
It is being prosecuted by First Assistant  United States Attorney Louis D.
Lappen and Assistant United States Attorney  Joseph J. Khan.
UNITED STATES ATTORNEY'S OFFICE,   EASTERN DISTRICTof
PENNSYLVANIA
Suite 1250, 615 Chestnut Street, Philadelphia, PA  19106
PATTY HARTMAN,			Media Contact,
215-861-8525
Top
Printable view
Last Modified: 08/14/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov